                                                                 Un ited States Department of Statf'
                                                                 and the Broadcasting Board of Governors

                                                                 Ofl ie" of In spector General



                                                                            JUN - 2 ZOll

 The Honorable Edward Drusina, U.S. Commissioner
 International Boundary and Water Commission
 United States and Mexico, U.S . Section
 4171 North Mesa Street, Suite C-I 00
 EI Paso, TX 79902-1441

 Dear Commissioner ~

 Enclosed for your review and action is a copy of the report Audit ofinternational Boundary and
 Waler Commission Construction Contract With Longhorn Excavators, inc., Using Funds
 Provided by the American Recovery and Reinvestment Act (AUD/CG-II -23). Based on your
 response, the Office of Inspector General considers Recommendation 3 closed upon issuance of
 this report. However, please provide your response to the report and information on actions
 taken or planned for Recommendations I, 2, and 4 within 30 days of the date of this letter.
 Actions taken or planned are subject to followup and reporting in accordance with the enclosed
 compliance response information.

 The Office ofTnspector General (OlG) incorporated your comments as appropriate within the
 body of the report and included them in their entirety as Appendix B.

 OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
 have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
 at (202) 663 -0372 or Richard Astor, Director, Division of Contracts and Grants, at (703) 284­
 2601 or by email at astorr@state.gov.

 Sincerely,



 Harold W. Geisel
 Deputy Inspector General

 Enclosures: As stated.

 cc:           (b) (6)
                (b) (6)
                       (b) (6)
                       (b) (6)
                  (b) (6)




Address correspondence to: U.S. Department of State, Office of Inspector General, Washington; D,C. 20522-0308
                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                Audit of International Boundary and Water

                                 Commission Construction Contract With 

                                     Longhorn Excavators, Inc., Using

                               Funds Provided by the American Recovery and

                                             Reinvestment Act


                                              Report Number AUD/CG-11-23, June 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State of the

                               Broadcasting Board of Governors, or any agency or organization receiving a copy 

                               directly from the Office of Inspector General. No secondary distribution may be

                               made, in whole or in part, outside the Department of State or the Broadcasting Board

                               of Governors, by them or by other agencies of organizations, without prior

                               authorization by the Inspector General. Public availability of the document will be

                               determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.Improper

                               disclosure of this report may result in criminal, civil, or administrative penalties.




                                                               UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office ofInspector General




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one ofa series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OlG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the International Boundary and Water Commission' s (mwC)
compliance with Federal, Department, and American Recovery and Reinvestment Act (Recovery
Act) acquisition management practices. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a rcview of applicable
documents.

       OIG contracted with the independent public accountant, Colton & Company, LLP, to
perform this audit. The contract required that Cotton perform its audit in accordance with
guidance contained in the Government Auditing Standards , issued by the Comptroller General of
the United States. Cotton's report is included.

       Cotton identified three areas in which improvements could be made: complying with all
relevant Federal laws and regulations, including those of the Recovery Act; having adequate
processes and systems in place to collect information required to be reported by the Recovery
Aet; and providing complete and accurate information as required by the Recovery Act.

       OIG evaluated the nature, extent, and timing of Colton's work; monitored progress
throughout the audit; reviewed Colton's supporting documentation; evaluated key judgments;
and performed other procedures as appropriate . OIG concurs with Colton ' s findings , and the
recommendations contained in the report were developed on the basis of the best knowledge
available and were discussed in draft form with those individuals responsible for
implementation. OIG's analysis of management' s response to the recommendations has been
incorporated into the report. OlG trusts that this report will result in more effective, efficient,
andlor economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General


                                         UNCLASSIFIED
   Cotton~                                                 (1      '"I.. (       11\        I'
                                                                                                 1':   71)~ _ "' ) 6J17(l1


Company                                                    .1'''   rlnor
                                                           A jn:llHiria. V'\   22 ~ 1 · 1
                                                                                                 r: 701':-,,(,,1\')'11
                                                                                                 WIY w .,,'Tt <IT1C l',l ,\I'1ll




Audit of International Boundary and Water Commission Construction Contract With Longhorn
Excavators, Inc. , Using Funds Provided by the American Recovery and Reinvestment Act


Office of Inspector General
U.S. Department of State
Washington, D.C.

Cotton & Company, LLP (referred to as "we" in this letter), has performed an audit of the
International Boundary and Water Commission's (mwC) construction contract with Longhorn
Excavators, Inc., using funds provided by the American Recovery and Reinvestment Act
(Recovery Act). We evaluated Longhorn's compliance with relevant Federal laws and
regulations, including those of the Recovery Act; adequacy of processes and systems in place to
collect information required to be reported by the Recovery Act; and accuracy and completeness
of required report submissions. This performance audit, performed under Contract No. S-AQM­
PD-04-D0035 , was designed to meet the objective identified in the report section titled
"Objective" and further defined in Appendix A, "Scope and Methodology."

We conducted this performance audit in accordance with Government Auditing Standards , issued
by the Comptroller General of the United States. We communicated the results of our
performance audit and the related findings and recommendations to the U.S. Department of State
Office ofInspector General.

We appreciate the cooperation provided by personnel in Department o11ices during the audit.


COTTON & COMPANY, LLP


r/kr
Michael W. Gillespie, CPA, CFE
Partner


Alexandria, Virginia
April 2011
                                    UNCLASSIFIED



                                  TABLE OF CONTENTS



Section                                                                          Page
Executive Summary                                                                    1
Background                                                                           1
Objective                                                                            2
Results of Audit                                                                     2
  Finding A. Contractor Did Not Comply With All Contract Terms and Conditions        2

  Finding B. Required Subcontractor Forms and Certifications Were Not Obtained       4

  Finding C. Buy American Act Controls Were Not in Place                             5

  Finding D. Recovery Act Reporting Was Inaccurate and Incomplete                    6


List of Recommendations                                                              8
Appendices
A Scope and Methodology                                                              9

B International Boundary and Water Commission Response                              11





                                    UNCLASSIFIED

                                     UNCLASSIFIED




Acronyms

Department     Department of State
FAR            Federal Acquisition Regulation
IBWC           International Boundary and Water Commission
OIG            Office of Inspector General
OMB            Office of Management and Budget
Recovery Act   American Recovery and Reinvestment Act of 2009




                                     UNCLASSIFIED

                                       UNCLASSIFIED


                                    Executive Summary
       The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this report), to conduct performance audits of
contractors that received funding provided by the American Recovery and Reinvestment Act of
2009 (Recovery Act) from the International Boundary and Water Commission (IBWC). The
audit objective was to determine whether contractors that received Recovery Act funds from
IBWC complied with relevant Federal laws and regulations, including those of the Recovery
Act; had adequate processes and systems in place to collect information required to be reported
by the Recovery Act; and submitted required reports that are accurate and complete. One
contractor selected for review was Longhorn Excavators, Inc.

       Longhorn was awarded a $19,169,159 contract on August 21, 2009, to furnish all labor,
materials, and equipment for the construction of improvements on the main floodway of the
Lower Rio Grande Flood Control Project located in Hidalgo County, Texas. Longhorn invoiced
and was paid $9,824,615 for work performed through June 30, 2010.

        Longhorn did not comply with all relevant Federal laws and regulations, including those
of the Recovery Act; did not have adequate processes and systems in place to collect information
required to be reported by the Recovery Act; and did not provide complete and accurate
information as required by the Recovery Act. Specifically, Longhorn did not obtain required
subcontractor forms and certifications, implement Buy American Act controls, comply with all
contract terms and conditions, or submit accurate and complete Recovery Act reports.

                                         Background
        IBWC is an international body composed of the United States Section and the Mexican
Section. Each section is administered independently of the other. The United States Section is a
Federal Government agency and has its headquarters in El Paso, Texas. IBWC operates under
the foreign policy guidance of the Department of State. The mission of IBWC is to apply the
rights and obligations that the Governments of the United States and Mexico assume under the
numerous boundary and water treaties and related agreements. IBWC’s obligations include
construction, operation, and maintenance of levees and floodway projects along the Rio Grande
River.

        The Recovery Act provided $220 million to IBWC for the Rio Grande Flood Control
System Project to evaluate needed repairs and/or rehabilitation of deficient portions of the flood
control systems, with all funds required to be obligated by September 30, 2010. Repairs and
rehabilitation entail raising levee segments to original design levels and reconstructing segments
where the integrity of the structures has been compromised. The project consists of two primary
phases: the Pre-construction Phase, which involves geotechnical investigations, environmental
documentation, and design, and the Construction Phase, which involves project construction.
IBWC projects can continue to expend Recovery Act funds for contracts as long as those funds
were obligated by September 30, 2010.

                                             1
                                        UNCLASSIFIED
                                                UNCLASSIFIED


        IBWC awarded Contract No. IBM09C0015 for $19,169,159 to Longhorn Excavators,
Inc., on August 21, 2009. The contract was to furnish all labor, materials, and equipment for the
construction of improvements on the main floodway of the Lower Rio Grande Flood Control
Project located in Hidalgo County, Texas. Longhorn invoiced and was paid $9,824,615 for
work performed through June 30, 2010. As of July 2010, there were four modifications, which
adjusted the total value of the contract to $17,652,679. The Notice to Proceed was issued on
September 1, 2009, with a performance period of 605 calendar days.

                                                    Objective
        The audit objective was to determine whether contractors that received Recovery Act
funds from IBWC complied with relevant Federal laws and regulations, including those of the
Recovery Act; had adequate processes and systems in place to collect information required to be
reported by the Recovery Act; and submitted required reports that were accurate and complete.

                                               Results of Audit
        Longhorn did not comply with all construction contract terms and conditions or relevant
Federal laws and regulations, including those of the Recovery Act; did not have adequate
processes and systems to collect information required to be reported by the Recovery Act; and
did not provide information in Recovery Act reports that was accurate and complete.

Finding A. Contractor Did Not Comply With All Contract Terms and
Conditions

       The contractor Longhorn did not comply with all terms and conditions of its Recovery
Act construction contract. It did not enroll as a Federal contractor in E-Verify at the time of
contract award, as required by the Federal Acquisition Regulation (FAR).1 Specifically, the
FAR requires Federal contractors to enroll “as a Federal Contractor in the E-Verify program
within 30 calendar days” of contract award. Longhorn also did not verify that its employees
were eligible to work in the United States, which is also required by the FAR.2

       E-Verify is an Internet-based free program run by the U.S. Government that compares
information about an employee’s employment eligibility from Form I-9, Employment Eligibility
Verification, with data from U.S. Government records. If the information matches, that
employee is eligible to work in the United States. If there is a mismatch, E-Verify alerts the
employer, and the employee is allowed to work while he or she resolves the problem within 8
days. The program is operated by the Department of Homeland Security in partnership with the
Social Security Administration.




1
    FAR 52.222-54(b)(1)(i), “Employment Eligibility Verification.” (January 2009).
2
    Ibid., (b)(1)(ii)-(b)(1)(iii).
                                                     2
                                                UNCLASSIFIED
                                             UNCLASSIFIED


         Longhorn representatives stated that they did not initiate verification of employment
eligibility of Longhorn employees within E-Verify because they were unaware of the
requirement. In addition, Longhorn verified employee Social Security Numbers using the Social
Security Administration Web site and believed that the action was sufficient for compliance.

       Also, Longhorn did not ensure employment eligibility verification or existence of
procedures to ensure verification of citizenship for its subcontractors. Specifically, one
subcontractor did not have U.S. Citizenship and Immigration Services Forms I-9 on file for eight
employees who worked on the Recovery Act construction project.

        Instructions for Form I-9 require all employees (citizen and noncitizens) hired after
November 6, 1986, and working in the United States to complete the form, and employers must
retain completed forms for 3 years after the date of hire or 1 year after the date employment
ends, whichever is later.

        In addition, Longhorn did not have a business ethics awareness and compliance program
or an internal control system, both of which are required by the FAR.3 Specifically, a contractor
is required to have, “within 30 days after contract award,” a “written code of business ethics and
conduct” and to make the code available to every employee working on the contract. The FAR4
also requires the contractor to “exercise due diligence to prevent and detect criminal conduct”
and to “otherwise promote an organizational culture that encourages ethical conduct and a
commitment to compliance with the law.”

       Longhorn officials stated that although they had an established code of conduct, the code
had not been reviewed or updated since 2001. We believe that an updated code of conduct, and
proper adherence to the code, could eliminate improper conduct in connection with Government
contracts.

        Finally, Longhorn had no controls in place and did not ensure compliance with
affirmative action. The FAR5 requires contractors to take “affirmative action to ensure equal
employment opportunity” and further requires contractor compliance to be “based upon its effort
to achieve maximum results from its actions.” The FAR6 further requires the efforts to be fully
documented, and affirmative action steps to be implemented. Longhorn representatives stated
that they were unaware of these FAR requirements.

        Recommendation 1. We recommend that the International Boundary and Water
        Commission contracting officer for IBWC Contract No. IBM09C0015 require that the
        contractor Longhorn Excavators, Inc., implement procedures to ensure that it and its
        subcontractors comply with Federal Acquisition Regulation requirements as they pertain
        to enrolling as a Federal contractor, ensuring employment eligibility, and ensuring equal
        employment opportunity.

3
  FAR 52.203-13(b)(1)(i)-(b)(1)(ii), “Contractor Code of Business Ethics and Conduct.” (December 2008). 

4
  Ibid., (b)(2)(i)-(b)(2)(ii). 

5
  FAR 52.222-27(g), “Affirmative Action Compliance Requirements for Construction.” (February 1999). 

6
  Ibid. 

                                                   3
                                              UNCLASSIFIED
                                            UNCLASSIFIED


         IBWC Response: IBWC concurred with the recommendation, stating that the contract
         with Longhorn “contains clause 52.222-54, ‘Employment Eligibility Verification’ which
         requires the contractor to enroll in the E-Verify program within 30 days of contract
         award.” Therefore, according to IBWC, “[A]ll contractors required to [enroll in] E-
         Verify will be required to submit the evidence of registration by submitting the MOU
         [memorandum of understanding] or company profile page as provided by E-Verify
         within 30 days of contract award.” IBWC further stated that the contracting officer for
         this contract “will remind this contractor of his obligation to enroll (as previously
         addressed in our pre-construction conference) immediately.”

         OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
         resolved. The recommendation can be considered closed pending OIG’s review and
         acceptance of documentation showing that the contractor has enrolled in E-Verify.

Finding B. Required Subcontractor Forms and Certifications Were Not
Obtained
        The contractor Longhorn did not obtain all required forms from its subcontractors. The
     7
FAR requires contractors to deliver to the contracting officer a completed Office of
Management and Budget (OMB) Standard Form (SF) 1413, Statement and Acknowledgment, for
each subcontract for construction within the United States “[w]ithin 14 days after the award of
any subsequently awarded subcontract.” This form represents the subcontractor’s
acknowledgement of the FAR clauses included in subcontractor contracts. Longhorn did not
obtain SFs 1413 from two of its eight subcontractors: Izaguirre Engineering Group and Regional
Cities Services Corporation. The contractor’s representatives stated that they did not think they
needed to obtain the form from Izaguirre and failed to obtain the form from Regional Cities.

       Longhorn did not obtain certifications from all eight of its subcontractors at the time of
award confirming that “the subcontractor, or its principals, is or is not debarred, suspended, or
proposed for debarment by the Federal Government” in accordance with the FAR.8 Longhorn
representatives stated that they did not obtain the certifications because they work with the
subcontractors on a regular basis and did not believe the certifications were necessary.

        The failure to obtain required forms and certifications could result in subcontractors’
being unaware of applicable FAR clauses and/or of subcontracts being awarded to companies
that have been debarred, suspended, or proposed for debarment. We were able to verify that the
subcontractors were not included in the Excluded Parties List System, which is an electronic
Web-based system that identifies those parties excluded from receiving Federal contracts.

         Recommendation 2. We recommend that the International Boundary and Water
         Commission contracting officer for IBWC Contract No. IBM090015 ensure that the

7
 FAR 52.222-11(d)(2), “Subcontracts (Labor Standards).” (July 2005). 

8
 FAR 52.209-6(b), “Protecting the Government’s Interest When Subcontracting with Contractors Debarred, 

Suspended, or Proposed for Debarment.” (September 2006). 

                                                  4
                                             UNCLASSIFIED
                                           UNCLASSIFIED


        contractor Longhorn Excavators, Inc., requires its subcontractors to submit Office of
        Management and Budget Forms 1413, Statement and Acknowledgement, and requires
        Longhorn to retroactively obtain Forms 1413 from the two subcontractors that did not
        submit the forms to IBWC. The IBWC contracting officer should also ensure that
        Longhorn retroactively obtains certifications from all subcontractors supporting that the
        subcontractors or their principals are not debarred, suspended, or proposed for debarment.

        IBWC Response: IBWC concurred with the recommendation, stating that the
        contracting officer for the contract will require OMB Forms 1413 to be submitted “as
        applicable” and that it will require contractors, “[f]or all current and future contracts,” to
        submit, along with their payment estimates, their list of subcontractors and accompanying
        SFs 1413 for that pay period. IBWC further stated that the payment applications
        verification form “will be modified to assure compliance.”

        OIG Analysis: Based on the response, OIG considers the recommendation resolved.
        The recommendation can be closed pending OIG’s review and acceptance of
        documentation showing IBWC’s requirement for contractors to submit, along with their
        payment estimates, their list of subcontractors and accompanying SFs 1413 for that pay
        period. IBWC should also provide a copy of the revised payment applications verification
        form.

Finding C. Buy American Act Controls Were Not In Place
        The contractor Longhorn did not have policies and procedures in place to ensure that all
construction materials used on the construction project were produced in the United States. The
FAR9 defines “construction material” as “an article, material, or supply brought to the
construction site” by the contractor or subcontractor “for incorporation into the building or
work.” The FAR10 requires, “unless an exception applies, . . . all iron, steel, and other
manufactured goods used as construction material in the project” to be produced in the United
States for Recovery Act-funded projects. This clause also implements the Buy American Act11
by providing a preference for unmanufactured domestic construction material.

        One Longhorn subcontractor purchased construction materials, and Longhorn relied on
the subcontractor to comply with the Buy American Act requirements. The subcontractor did
not, however, have procedures in place to ensure that all construction materials used on the
project were produced in the United States. In this instance, we verified that materials used to
date were produced in the United States.

      Without procedures, a contractor and/or a subcontractor could be in violation of the Buy
American Act, for which corrective actions can include removing and replacing the improperly

9
  FAR 52.225-21(a), “Required Use of American Iron, Steel, and Other Manufactured Goods–Buy American Act–

Construction Materials.” (March 2009). 

10
   Ibid., (b)(1)(i)-(b)(1)(ii). 

11
   41 U.S.C. §§ 8301-8305 (formerly 41 U.S.C. §§ 10a-10d). 

                                                5
                                           UNCLASSIFIED
                                              UNCLASSIFIED


purchased foreign-manufactured goods, reducing the amount of the award, or even withholding
future funds.

           Recommendation 3. We recommend that the International Boundary and Water
           Commission contracting officer for IBWC Contract No. IBM09C0015 require that the
           contractor Longhorn Excavators, Inc., establish procedures to ensure that materials
           purchased for American Recovery and Reinvestment Act construction projects comply
           with the Buy American Act.

           IBWC Response: IBWC concurred with the recommendation, stating that IBWC “has
           been requiring contractors to comply with the Buy American Act” and that the contractor
           “is made aware that any material that does not comply with the Buy-American Act will
           not be paid for and may need to be removed at contractor’s expense.” IBWC further
           stated: “To further comply with the Act, the IBWC Contracting Officer Representatives
           assigned to each project assure that prior to acceptance of any payment application the
           acceptability of the material furnished by the prime [contractor] and its subcontractors.
           Contracted support service providers will again be directed to be more vigilant of this
           requirement.”

           OIG Analysis: Based on IBWC’s response, OIG considers the recommendation closed.

Finding D. Recovery Act Reporting Was Inaccurate and Incomplete

        The contractor Longhorn incorrectly calculated and reported the number of jobs created
and retained. Specifically, it reported each employee listed on certified payrolls as a full-time-
equivalent employee instead of correctly reporting employees as being in part-time or full-time
status. The FAR12 explains how to calculate this information. Longhorn’s reporting figures
were, however, incorrect because Longhorn officials stated that they did not understand that
aspect of the regulations.

       Also, Longhorn did not submit correct and complete reports for all eight of its
subcontractors into the site FederalReporting.gov, as required by the FAR,13 for its Recovery Act
construction contract. Contractors are required to report specific information for “any first-tier
subcontract funded in whole or in part under the Recovery Act, that is over $25,000.” This
information includes the subcontractor business information, the funding agency, description of
products or services provided under the contract, and place of performance. Longhorn
erroneously reported the office address for all eight of its subcontractors as the primary place of
performance of work under the Recovery Act construction contract, and it did not report two
subcontractors during the correct timeframe. Specifically, it awarded a subcontract to Izaguirre
Engineering Group in December 2009 and should have begun reporting the contractor starting
with the fourth quarter 2009 report, and it awarded a subcontract to Regional Cities Services
Corporation in June 2010 and therefore should have begun reporting the subcontractor starting

12
     FAR 52.204-11(a), “American Recovery and Reinvestment Act, Reporting Requirements.”
13
     Ibid., (d)(10).
                                                   6
                                              UNCLASSIFIED
                                       UNCLASSIFIED


with the second quarter 2010 report. This information was not submitted, according to Longhorn
officials, because personnel were unfamiliar with or did not understand the reporting regulations.

      Without complete and accurate reporting, all contract information is not available to the
Government and to the public, thereby defeating one goal of the Recovery Act: transparency.

       Recommendation 4. We recommend that the International Boundary and Water
       Commission contracting officer for IBWC Contract No. IBM09C0015 require the
       contractor Longhorn Excavators, Inc., to ensure that its personnel are aware of
       FederalReporting.gov reporting requirements under its American Recovery and
       Reinvestment Act construction contract and prepare and submit required reports that are
       complete and accurate.

       IBWC Response: IBWC concurred with the recommendation, stating that the
       FederalReporting.gov Web site “provides online training to contractors which we agree
       may be underutilized by the prime [contractor] and subcontractors alike.” IBWC further
       stated that it will “require ARRA recipients [to] certify that their ARRA reporting
       specialists have taken the [online training] within 60 days” of responding to this report.

       OIG Analysis: Based on IBWC’s response, OIG considers the recommendation
       resolved. The recommendation can be closed pending OIG’s review and acceptance of
       documentation showing that IBWC reporting specialists for the Recovery Act have
       completed the proposed training.




                                             7
                                        UNCLASSIFIED
                                       UNCLASSIFIED



                                 List of Recommendations

Recommendation 1. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM09C0015 require that the contractor Longhorn
Excavators, Inc., implement procedures to ensure that it and its subcontractors comply with
Federal Acquisition Regulation requirements as they pertain to enrolling as a Federal contractor,
ensuring employment eligibility, and ensuring equal employment opportunity.

Recommendation 2. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM090015 ensure that the contractor Longhorn
Excavators, Inc., requires its subcontractors to submit Office of Management and Budget Forms
1413, Statement and Acknowledgement, and requires Longhorn to retroactively obtain Forms
1413 from the two subcontractors that did not submit the forms to IBWC. The IBWC
contracting officer should also ensure that Longhorn retroactively obtains certifications from all
subcontractors supporting that the subcontractors or their principals are not debarred, suspended,
or proposed for debarment.

Recommendation 3. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM09C0015 require that the contractor Longhorn
Excavators, Inc., establish procedures to ensure that materials purchased for American Recovery
and Reinvestment Act construction projects comply with the Buy American Act.

Recommendation 4. We recommend that the International Boundary and Water Commission
contracting officer for IBWC Contract No. IBM09C0015 require the contractor Longhorn
Excavators, Inc., to ensure that its personnel are aware of FederalReporting.gov reporting
requirements under its American Recovery and Reinvestment Act construction contract and
prepare and submit required reports that are complete and accurate.




                                             8
                                        UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                                  Appendix A

                                       Scope and Methodology
         The Department of State, Office of Inspector General, Office of Audits, engaged Cotton
& Company, LLP (referred to as “we” in this appendix), to conduct performance audits of
contractors that received American Recovery and Reinvestment Act (Recovery Act) funds from
the International Boundary and Water Commission (IBWC). One of the contractors selected for
review was Longhorn Excavators, Inc. The audit included Recovery Act funds expended
through June 30, 2010. Fieldwork was conducted in August 2010 at Longhorn Excavators, Inc.,
headquarters in Richmond, Texas.

        We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on audit objectives.

To meet our audit objectives, we used the following methodology:

        	 Reviewed documentation available on the Internet for Longhorn and its
           subcontractors to evaluate their eligibility to perform on Government contracts and
           validate the organizations’ entity status.

        	 Selected and tested a sample of Recovery Act reports in FederalReporting.gov to
           determine whether information reported was accurate and supported.

        	 Determined whether Longhorn had processes that were established and functioning to
           ensure compliance with Buy American Act requirements.

        	 Selected and tested a sample of Longhorn- and subcontractor-certified payrolls to
           verify compliance with requirements of the Davis-Bacon Act1 and the Copeland Act2
           and to verify that processes were in place to validate employment eligibility of those
           individuals performing on the contract.

        	 Reviewed and evaluated subcontracts executed by Longhorn to ensure inclusion of
           proper clauses, receipt of debarment certifications, notification made to the IBWC of
           active subcontracts, and timely payments.




1
  The Davis-Bacon Act requires Federal contractors to pay prevailing wages, as defined by the Wage and Hour

Division of the Department of Labor or Federally funded or assisted construction projects.

2
  The Copeland “Anti-Kickback” Act prohibits Federal contractors or subcontractors engaged in building

construction or repair from inducing an employee to give up compensation.

                                                         9 
                                             UNCLASSIFIED

                                                         
                                       UNCLASSIFIED



       	 Evaluated whether Longhorn and its subcontractors had proper programs in place to
          ensure compliance with code of business ethics, equal opportunity, and affirmative
          action requirements.

       We discussed the tentative results of this audit with Longhorn officials during fieldwork
and with IBWC officials on January 12, 2011.

Review of Internal Controls

        We reviewed the contractor Longhorn’s controls to ensure Longhorn and subcontractor
compliance with contractual and regulatory requirements. We determined that Longhorn did not
have appropriate controls established to ensure compliance with contractual and regulatory
requirements. Longhorn did not have corporate ethics and affirmative action programs or
internal control systems established to ensure compliance with these regulatory requirements.
Additionally, Longhorn did not have a process in place to ensure that required subcontractor
forms and debarment certifications were received at the commencement of the subcontracts.
Longhorn had not implemented controls to ensure that construction materials met Buy American
Act requirements. It also did not have appropriate controls established to submit accurate
Recovery Act reports.

       Implementing recommendations contained in the report will improve controls over
ensuring compliance with required laws and regulations and accurately reporting Recovery Act
spending to the public.
 
Use of Computer-Processed Data

        We used payroll files, job cost data, and other financial reports from the contractor
Longhorn’s systems to test accuracy of Longhorn’s reporting in FederalReporting.gov
information. We also validated expenditures listed in IBWC’s budgetary and billing systems to
ensure accuracy of reporting in FederalReporting.gov. There were no unexplained discrepancies
in the expenditure data reported. A number of inaccuracies were found in the data reported in
FederalReporting.gov. These errors were, however, the result of Longhorn’s misunderstanding
of reporting requirements and were not caused by automated data system issues.
 
                               




                                            10 
                                       UNCLASSIFIED

                                                 
                                                                                             UNCLASSIFIED



                                                                                                                                                            Appendix B
                                                                   I!'-TLRJ\.\TION,-\L
                                                                   It\TLRJ\,\TION,-\L BUliND.\RY     . \~D \V.'\TER
                                                                                       BOl:ND:l.[\Y .\\1D    \V.-\TER CO;-,
                                                                                                                        CO;-"' J:-'lISS/O!\
                                                                                                                               I\lISS IOi\
                                                                                 U\T1TD ST
                                                                                 l."NIlTD    \TES .-\;\Jl)
                                                                                          SL\lTS             :\IE~ICO
                                                                                                    .-\:\1.) :-'I[;\ ICO

t Ifill
  1[ I II 1
          j 'II JIIIII!\1
            (/I   J III It t\l\jl"                   1! )".1 !,~
                                     11 .... ....... !!i"ll!
     "J <I'II   11 IJ \11
           J J I'          ....... ,r ( I (CII'.
                       \!! ......                       '.
                                                                                                        th
                                                                                               April 20
                                                                                                     20th, , 2011




          United States Department of State and the Broadcasting Board of Governors
          Office of Inspector General
          Attn: Evelyn R. Klemstine, Assistant Inspector General for Audits
                          N.W..
          2201 C Street, N.W
          VVashington, DC 20520-0308



          Subject: OIG Audit of International Boundary and Water Commiss
                                                                 Commissiion Construction
          Contract with Longhorn Excavators, Inc.


           Dear Ms. Klemstine
                    Klemstine::

          'We are pleased to provide you the attached responses to the findings and
          recommendations shown in the draft audit report entitled Audit of International Boundary
          clnd Water Commission Construction Contract with Longhorn Excavators, Inc     Inc.,., using
          Funds provided by the American Recovery and Reinvestment Act Draft report dated
          March 2011.

          \/Ve
           Ve note that improvements have already been made in the USIBWC AcquisitionAcquiSition
          Division in response to the recommendations provided in the audit report, and specific
          responses to each finding and recommendation are provided
                                                           provided..


                                                                                                Sincerely,




                                                                                             dJ;-Edward Drusina
                                                                                                        Drusina,, PE
                                                                                                 Commissioner


          GC:
          Christopher Parker,
                       Parker, Internal Audit Program Manager
          Diana Forti, Chief Administrative Officer


                                        Jill:
                                        I he         CnmIllPll\.
                                                     ('\)111111111)'0, .BuilliIllg C. Suitc
                                                                        Building           Suilc I()() • -1-171
                                                                                                         4171 N. N. i\'ksa
                                                                                                                     Mesa Strcct
                                                                                                                            Strect • ElEI Paso.  T('\a~ 7lJl)()2
                                                                                                                                          Past). Tcxas  7l)l)02
                                                               (91)) K:'2 -..j.J()() ·• IFAX)
                                                                     KJ2 -4J()(1        I FAX) (915
                                                                                                ()15)) K:i2--l-llJ()   Ilttp:ii\\\\w.ibwlo
                                                                                                       XJ2-.+llJ{) .• llllp                .slatc.um
                                                                                                                            :/i\\\\,w.ibwcstatc.gov

                                                                                                11

                                                                                           UNCLASSIFIED
                                    UNCLASSIFIED



Thank you for the copy of your report dated March 2011, we greatly appreciate the
o'pportunity
C pportunity to respond to the report
                               report..

The USIBWC generally agrees with all of the OIG recommenda
                                                       recommendations,
                                                                    tions, and each
recommendation and suggestion that was noted in the report is addressed below:

OIG recommendations and USIBWC response:

   1. Recommendation 1. We recommend that the USIBWC contracting officer for
      IBWC Contract no. IBM09C0015 require that the contractor Longhorn
      Excavators, Inc. implement procedures to ensure that it and its subcontractors
      comply with FAR requirements as they pertain to enrolling as a Federal
      contractor, ensuring employment eligibility, and ensuring equal employment
      contractor,
      opportun ity..
      opportunity

      Response: Contract IBM09C0015 contains clause 52.222-54 "Employment
      Response:
      Eligibility Verification" which requires the contractor to enroll in the E-Verify
      program within 30 days of contract awardaward.. The E-Verify website does not
      implement web tools for Federal Agencies to assure contractor compliance. In
      fact, the only way to confirm registration of the company and its subs is to
      request from the contractor the MOU or company profile page provided by E-
      Verify to the contractor. However, because of privacy laws, Federal Agencies
      cannot view or gauge the contractor's personnel request efforts thru E-Verify
                                                                                 E-Verify..
      Therefore, all contractors required to E-Verify will be required to submit the
      evidence of registration by submitting the MOU or company profile page as
      provided by E-Verify within 30 days of contract award. The contracting officer for
      this contract will remind this contractor of his obligation to enroll (as previously
      addressed in our pre-construction conference) immediately.
                                                       immediately.

   2. Recommendation 2.. We recommend that the USIBWC contracting officer for
      Contract IBM09C0015 ensure that the contractor Longhorn Excavators, Inc          Inc..
      require its subcontractors to submit OMB Forms 1413, Statement and
      Acknowledgement, and require the contractor to retroactive        ly obtain Forms
                                                             retroactively
      1413s from the two subs that did not submit the forms to IBWC. The IBWC
      should ensure that the prime contractor retroactively obtains certifications from all
      subcontractors supporting that the subcontractors or their principals are not
      debarred , suspended, or proposed for debarment.

      Response: The contracting officer for IBM09C0015 will requi   require
                                                                         re submission of
      required OMB Forms 1413s as applicable. For all current and future contracts,
      this office will require contractors to submit, along with their payment estimates,
      their list of subcontractors and accompanying SF1413s for that pay period.
                                                                              period . The
      payment applications verification form will be modified to assure compliance.

   3. Recommendation 3. We recommend that the USIBWC contracting officer for
      IBM09C0015 require that the prime contractor establish procedures to ensure


                                             2

                                         12

                                    UNCLASSIFIED

                                  UNCLASSIFIED




      that materials purchased for ARRA construction projects comply with the Buy
      American Act.

      Response: The USIBWC has been requiring contractors to comply with the Buy
      American Act. A pre-requirement to receiving a Notice to Proceed is submission
      of a Quality Assurance Plan which identifies the contractor's Quality Control
      Program Manager. The QC Manager is responsible for implementation of the
      Buy American Act. That responsibility and ramifications for non-compliance is
      clearly addressed at each pre-construction conference. In turn, the contractor is
      made aware that any material that does not comply with the Buy-American Act
      will not be paid for and may need to be removed at contractor's expense
                                                                         expense.. To
      further comply with the Act, the USIBWC Contracting Officer Representatives
      assigned to each project assure that prior to acceptance of any payment
      application the acceptability of the material furnished by the prime and its
      subcontractors. Contracted support service providers will again be directed to be
      more vigilant of this requirement.

   4. Recommendation 4: We recommend that the USIBWC contracting officer for
      IBM09C0015 require the prime contractor to ensure that its personnel are aware
      of FederalReporting.gov reporting requirements under its ARRA construction
      contract and submit required reports that are complete and accurate.

      Response
      Response:: . The FederalReporting.gov website provides online training to
      contractors which we agree may be underutilized by the prime and
      subcontractors alike. This office will require ARRA recipients certify that their
      ARRA reporting specialists have taken the seven (7) webinars this training within
      60 days of this response to audit.


Thank you again for the opportunity to respond to this draft report and please advise us
of any follow-up questions, comments, or concerns about this response letter.

You may reach Hugo White, Acquisitions Division Chief at 915-832-4711 or Christopher
Parker, Internal Audit Program Manager at 915-832-4794 or via ema         emaiil at
Hugo .White@ibwc .gov or Christopher.Parker@ibwc .gov .




                                           3

                                        13

                                   UNCLASSIFIED

UNCLASSIFIED





UNCLASSIFIED

